                             CLOSEOUT FOR M92060021




subject that appeared as an appendix to the proposal contained several figures which had been
originally published and copyrighted by the complainant. The complainant stated that the
subject had not sought permission to reproduce the figures from her or the original publisher
and had thereby infringed on the copyright on the figures.



proposal described a research project to be conducted in a senior PI'S laboratory at a
research institution. The project was designed to expand the subjed's research experience in
her field.                                                                         q




    OIG found that each of the figure legends contained a correct citation to the original
work; therefore the material could not be considered to have been plagiarized from the
complainant's published paper. There was no indication in the subject's manuscript that
permission to reproduce the figures was being sought, or had been obtained, from the
publisher. Therefore OIG contacted the subject to clarify this issue.

    The subject stated that the figures were copyrighted and permission to reproduce the
figures was being sought from the publisher. The material would not be used in the final
publication if permission were denied. Subsequently, the subject informed OIG that t   k
publisher had not responded to her request to reproduce the figures; however, at the request
of reviewers the section containing the figures had been deleted from the final version of the
manuscript. OIG confiied that the figures had been deleted in this version of the
manuscript.

    No substance was found for an allegation of plagiarism because the subject had carefully
cited the original publication as the source for the figures reproduced in an early versicm of
her manuscript. The absence of the reproduced figures in the final draft of the manuscript
eliminated any concern about copyright infringement. This case is closed without a finding
of misconduct.




                                                                         March 30, 1993




                                          Page 1 of 2
                                                        $?a-A /
                             CLOSEOUT FOR M92060021




cc:   Assistant Inspector General for Oversight
      Inspector General




                                        Page 2 of 2
                                                      92-a
